                                                                                                                     ..
                                                                                                      ' :':':.:.': :.-




 . S. GOVEll M £lNT
PIUNTI , , OF I E                                                          Robert C. Tapella
                                                                                  Publi~   Ptil\ter




June 1,2009


The Honorable Charles E. Schumer
Chairman
Joint Committee on Printing
305 Russell Senate Office Building
Washington, DC 20510

Dear Mr. Chairman:

In accordance with 44 U.S.c. 3903 and the relevant provisions of the Inspector
General Act of 1978, as amended, I am transmitting to Congress the Semiannual
Report of the Office of the Inspector General (OIG) for the U.S. Government
Printing Office (GPO), covering the 6 month period of October I, 2008, through
March 31, 2009, along with the following information as required by law. This
letter meets my statutory obligation to provide comments on the OIG's report and
highlights management actions taken on the OIG's recommendations, which may
relate to more than one reporting period.

General Comments

As provided for by law, this section offers my general comments on the OIG's
semiannual report and operations.

I.       Management Challenges. In my view, the organizational and
         technological transformation that GPO began implementing in 2003
         remains critical to the future of GPO. To carry out that transformation
         successfully, in this and previous reports the OIG has identified several
         challenges facing GPO ' s management that we are various stages of
         addressing.

         1. Sustainable Environmental Stewardship: Management has articulated a
         vision for sustainable environmental stewardship. This vision supplements
         longstanding environmental practices at GPO, including the use of printing
         papers that meet the requirements for recycled content contained in the
         Resource Conservation and Recovery Act of 1989, as amended, and
         corresponding Executive Orders; the use of printing inks that comply with
         the requirements of the Vegetable Ink Printing Act of 1994; and working
         with the Environmental Protection Agency and the District of Columbia to
         meet the standards for emissions of volatile organic compounds
         established by the Clean Air Act. New initiatives by management include

732 NM~ Co p,tol St ....t, NW   V\la.shington. DC 2:0401   1.02-512·1000       rt.poll'@gI'0·9""
                                                                                    ' ; .'. ' ":.:::;,,:-,




The Honorable Charles E. Schumer - Page 2


      planning for moving from web offset presses to digital equipment to
      reduce paper consumption; accelerating the re-engineering of business
      processes in production, procurement, documents dissemination, and
      administration to take advantage ofthe efficiencies offered by digital
      technology; conducting energy audits throughout GPO's facilities to
      reduce energy demand; using a greater variety of environmentally
      sustainable papers; reducing hazardous waste through solvent recovery
      systems, and reducing the total amount of waste generated by GPO
      operations; and installing a "green" roof on GPO's building, in targeted
      areas, to double the life expectancy of the roof and reduce heating
      demands in the building. Management has reviewed GAO's recently
      released study on its building initiative, including its recommendation for
      a cost-benefit analysis of a full range of options for obtaining a new
      facility. Management has also included a variety of energy-saving and
      sustainability building projects in GPO's FY 2010 appropriations request.

      2. Management of Human Capital: Management has either planned or
      initiated actions that address each ofOPM's required actions and
      recommendations. Human Capital (HC) has begun the necessary steps to
      fully partner with management in conducting workforce analysis. A
      project to review and validate all HC personnel data is planned for
      completion this fiscal year. HC has developed a database of all grade 15
      and senior level service positions in the agency that includes updated and
      current position descriptions and information regarding retirement
      eligibility for succession planning purposes.

      In addition, HC is working with GPO managing directors in identifying
      mission-critical occupations. To date, such operations have been
      identified in all but one GPO business unit, with agency-wide completion
      planned for June 2009. HC's Workforce Development, Education, and
      Training and the Organizational Effectiveness Group areas have
      established models for implementing targeted training to ensure critical
      workforce competencies.

      To support comprehensive workforce management and provide strategic
      planning and direction, HC is developing a process that will provide a
      framework for managing all aspects of GPO's workforce, including
      recruitment, succession, and development. Additionally, HC recognizes
      the need to improve its data infrastructure to maximize strategic
      partnerships and to further HC planning and workforce analysis. To that
      end, current IT limitations are being overcome through a number of
      initiatives, including implementing the National Finance Center's
The Honorable Charles E. Schumer - Page 3


      EmpowHR, USA Staffing, digitizing official personnel records, and a new
      Web-based time and attendance system (WebTA).

      HC is currently on track to complete an agency-wide training needs
      assessment by June 30, 2009. HC has created a 2-step process to address
      training evaluations as well as measurements for GPO's supervisor
      training series to use in assessing the initial impact of training on the target
      metrics identified at the start of the training.

      3. Improved Financial Management: Management successfully
      implemented the Oracle suite of business information systems, known as
      GElS, on May 1, 2009, instead of the originally planned date of October
      1,2008. The delay was necessary to ensure that proper training,
      development, and testing were performed. The GElS team also identified
      several new items required for proper functionality that needed to be
      developed and tested prior to going live. It is not anticipated that this
      delay will have a material affect on the financial statement audit. The
      KPMG audit team should be able to conclude fieldwork on GPO's legacy
      systems at interim, and complete the audit work covering May I, 2009,
      through September 30, 2009, within the new Oracle system.

      Management is developing new written procedures and updating some
      existing procedures in response to KPMG's FY 2008 audit findings. The
      May I, 2009, implementation of Oracle will help alleviate issues that
      KPMG identified concerning GPO's reconciliation of subsidiary and
      general ledger accounts using legacy systems. Management and KPMG
      disagreed over the estimated GPO liability for passport warranty cost for
      FY 2008. KPMG said there should be no liability while management
      believed some exposure existed and. maintained that a reserve against the
      exposure was proper and necessary. At that time, approximately one
      year's supply of the new electronic passports were in the distribution
      channel, not personalized, and not operationally tested. Management has
      stated that it will review the exposure on a regular basis and make
      adjustments as appropriate

      4. Continuity of Operations. Development of GPO's continuity of
      operations (COOP) capabilities will continue as a top management
      priority.

      A previous OIG review contained several recommendations designed to
      improve GPO's overall COOP posture, including a recommendation that
      GPO adopt the planning requirements and critical elements identified in
      Federal Preparedness Circular 65, "Federal Executive Branch Continuity
The Honorable Charles E. Schumer - Page 4


      of Operations" (since then, Federal Continuity Directive 1, February 200S,
      has superceded FPC-65, and is now used as the guidance for GPO's
      COOP activities). GPO developed a comprehensive COOP plan based on
      the Federal Emergency Management Agency template of key COOP
      components. The plan discusses issues such as essential functions,
      interoperable communications, and delegations of authority as well as
      testing, training, and exercises. GPO also developed an Occupant
      Emergency Plan (OEP) as a companion to its COOP. The OEP presents
      appropriate responses for emergencies and discusses known or anticipated
      categories of emergencies.

      GPO continues to take the necessary steps for enhancing its COOP
      posture, including planning and conducting exercises with scenarios that
      test alternate production facilities and procedures for notifYing essential
      personnel. GPO's business continuity team has also continued to work
      directly with GPO's various business units in support of the COOP
      program. GPO's business units are developing individual COOP plans
      that support and further define GPO's overall COOP plan.

      Accomplishments during the most recent period included defining
      requirements to develop or locate an alternate COOP site outside the
      Washington, DC, area to process and publish congressional documents.
      Various COOP exercises were completed, including an exercise ofthe
      passport production capabilities at the Stennis Space Center in Mississippi
      and an exercise in support of Congress. Also completed was a schedule of
      COOP exercises for 2009 as well as identification of the top issues
      impacting COOP.

      5. Internal Controls: Management concurs with KPMG's
      recommendations regarding internal controls over financial information
      and is taking corrective actions on:

          •   Reporting of general property, plant, and equipment;
          •   Reporting of e-passport work-in-process inventory;
          •   Compilation and management review of the consolidated financial
              statements; and
          •   Certain reconciliation controls.

      As noted above under Improved Financial Management, management
      does not fully concur with KPMG's recommendation regarding review
      and reporting of product warranty liability. Instead, management has
      reduced the warranty liability from $4.S million at September 2007 to
The Honorable Charles E. Schumer - Page 5


      $1.4 million at September 2008 and will continue to review the associated
      risk and adjust the warranty liability accordingly.

      Management concurs with KPMG's recommendations over the processing
      of human resources information. The following corrective actions have
      been implemented or are being implemented by GPO:

          •   Conducted a review of all EPIC access rights and modified access
              for employees to match their role in the personnel action process.
          •   Implemented a procedure whereby each pay period HC prints a
              report from EPIC and reviews all actions processed for accuracy
              and reasonableness.
          •   Implemented a two-tiered management review to be performed on
              the 49 current employees whose pay rate determinant code (PRD)
              is 4. The two HC managers identified will not have access to make
              changes in EPIC. Additionally, during this review, GPO will
              determine whether the employee's PRD can be changed and the
              salary be placed in the appropriate table on the NFC database.

      Management concurs with KPMG's recommendations over information
      technology general controls. GPO's Information Technology & Systems
      (IT&S) business nnit developed a plan during the second quarter ofFY
      2009 to address the implementation of the recommendations. This plan
      includes the need for additional resources or investments to complete the
      implementation. Should the assessment determine that additional
      resources and/or investments are required for any of these
      recommendations, those needs will be coordinated with GPO's Planning
      and Strategy Board for investment review and approval.

      6. Security and Intelligent Documents (SID): Management acknowledges
      that HSPD-12 offers guidelines, requirements, and prescribed practices
      that could benefit GPO in many ways. The initial steps of ensuring that
      proper and documented background suitability investigations have been
      performed on all new and current GPO employees were completed as of
      October 27, 2008. However, the full implementation of an HSPD-12
      model at GPO would entail significant investments in capital equipment,
      facilities upgrades, IT servers and secure PH handling systems, enrollment
      hardware and dedicated card management system software, personnel to
      administer the program, and a dedicated project management team.

      7. Protection of Sensitive Information: The Public Printer and GPO
      management are committed to safeguarding personally identifiable
      information (PH). The Public Printer has directed GPO's Office of
The Honorable Charles E. Schumer - Page 6


      General Counsel to undertake an agency-wide review of all policies
      affecting PH to ensure GPO is in full compliance with the appropriate
      statutory, regulatory, and other requirements. Further, management is
      evaluating how best to ensure protection of PH through the assignment of
      oversight responsibilities to a single manager.

      There is a significant amount of PH requiring protection in GPO's HC
      area. HC's use of the Agriculture Department's National Finance Center
      as its payroll provider requires that HC use employee social security
      numbers as the unique personal identifier. The Office of Personnel
      Management (OPM) has notified chief human capital officers
      Government-wide of regulatory requirements and recommended actions
      for protecting employee personal identifiers and combating identity theft;
      HC has implemented many ofthe recommended actions. In addition, HC
      will participate in available future training programs on information
      resources management provided by OPM, and will comply with applicable
      personnel security policies established by OPM.

      Management recognizes that more can be done to provide regular training
      to HC employees on protecting PH and will work to ensure this training
      occurs. In addition, management will require employees who access
      social security numbers to sign privacy and confidentiality statements that
      describe accountability clearly and warn of possible disciplinary action for
      unauthorized release .of any PH, as recommended by OPM. Management
      will look to OPM for guidance in developing a privacy and confidentiality
      statement.

      GPO has for years maintained PH procedures within its Print Procurement
      business unit for its agency customers. These procedures consist of
      ensuring the inclusion of appropriate contract provisions and providing
      assistance to customer agencies as they assess their PH security
      requirements, providing customer agency review of vendor security plans,
      and completion of on-site surveys and inspections. Print Procurement
      management is committed to adopting the recommendations of the OIG to
      the fullest extent by reviewing its procedures and making any
      improvements such as the following:

          •   The security plan and security requirements for current PH
              sensitive procurements are being reviewed by GPO for compliance
              with the contract requirements and submitted to the customer for
              their approval. If potential vulnerabilities surface during the
              security review, GPO will assist the customer agency in the
The Honorable Charles E. Schumer - Page 7


              development of a security action plan and will work with the
              agency and the contractor as necessary to resolve any issues.

          •   At the request ofthe customer agency, prior to contract award,
              Print Procurement-in conjunction with the agency-will conduct
              on-site surveys of the contractor. In addition, as several customer
              agencies have their own security teams that visit various
              contractors' plants to monitor PH-sensitive jobs, Print Procurement
              will encourage these agencies to take all appropriate measures in
              protecting their PH.

      Management has also incorporated PH as a topic in monthly supervisor
      performance discussions within the Print Procurement business unit.

      8. Information Technology and Systems Management. GPO continues to
      work to comply with the Federal Information Security Management Act
      (FISMA) of2002. The OIG has identified gaps in GPO's systems that are
      then taken as high-priority action items within IS&T. As a result of these
      audits, compliance continues to improve.

      GPO recently launched its Federal Digital System (FDsys), a world-class
      content management functionality for Federal publications, providing
      authentication, preservation, version control and permanent public access
      capabilities. Through this system, GPO is now able to offer a broader
      range of digitally signed, authenticated publications. Activities continue
      on this system to complete the migration of all GPO Access content to
      FDsys and establish a failover system in the legislative branch alternate
      computing facility, allowing GPO to sunset GPO Access. At this point,
      GPO will have a reliable, high-availability system capable of meeting its
      mission now and into the future to make authentic versions of Federal
      publications available permanently.

      Additional capability is planned for FDsys to support GPO's Print
      Procurement business unit and interface with a new composition system
      that is about to enter the design phase. GPO's launch ofGBIS represents
      a significant step forward in transitioning GPO's critical financial
      information systems onto new and sustainable technology. Each of these
      major system initiatives were supported with independent verification and
      validation (IV&V) activities coordinated with the OIG. Future IV&V
      activities are anticipated for the future activities on FDsys, but may not be
      required for GBIS since future development activities will consist of
      incremental enhancements.
The Honorable Charles E. Schumer - Page 8


      9. Business Development and Customer Service: Management concurs
      with the OIG and continues to make progress is this area. Standard
      operating procedures (SOP's) will improve consistency and hence the
      quality of customer service regardless of what team or individual within
      GPO is providing it. Accordingly, GPO has developed a template for
      SOP's and is in the process of establishing collaboration sites for each
      business unit to develop SOP's for their business processes.

      GPO has additional initiatives aimed at improving service for our
      customer agencies. These initiatives include improvements in the billing
      and invoicing processes as well as revising forms for submitting print
      procurement requests to GPO.

      10. Acquisitions: Management concurs with the OIG and continues to
      make progress is this area. Following the model established in the
      Services Acquisition Reform Act of2003, GPO's Acquisitions Services
      (AS) has adopted the training for acquisition professionals as offered by
      the Federal Acquisition Institute (FAI). This program was fully
      implemented in FY 2008. To date, all AS contracting officers are at least
      Level I certified. Approximately half of AS contracting officers are Level
      II certified, while nearly two-thirds of the Senior Acquisition staff is Level
      III certified. AS management has been working with HC to provide the
      FAI-equivalent training to GPO employees onsite. Currently, all classes
      are offered at GPO with both AS and Printing Procurement contracting
      officers enrolled in the training.

      In an effort to retain talent in acquisitions, management has worked with
      HC to review contract specialist position descriptions and to fill jobs,
      when applicable, using a career ladder format, i.e. PG-9111112; PG-12113;
      PG-13/14.

II.   Audits and Inspections. During the reporting period, the OIG issued 8
      new audit and assessment reports, 5 of them related to the ongoing Federal
      Digital System (FDsys) Independent Verification and Validation (IV & V)
      project, with recommendations to help improve operational performance:

          •   Federal Digital System (FDsys) Independent Verification and
              Validation (IV& V) - Fourth Quarter Report on Risk Management,
              Issues, and Traceability (Assessment Report 09-01, November 4,
              2008). As the OIG's report notes, management has concurred with
              each of this report's recommendations and has proposed
              responsive corrective actions.
The Honorable Charles E. Schumer - Page 9


          •   Audit of GPO's Passport Printing Costs (Audit Report 09-02,
              December 22,2008). Management concnrred with this report's
              recommendations to amend its Memorandum of Understanding
              with the State Department to better account for excess cash form
              passport sales, document and explain the change in overhead
              allocated to passport production, and revise the passport pricing
              structure to be more reflective of passport costing and production.

          •   Federal Digital System (FDsys) Independent Verification and
              Validation (IV& V) - Fifth Quarter Report on Risk Management,
              Issues, and Traceability (Assessment Report 09-03, December 24,
              2008). As the OIG's report notes, management proposed
              responsive corrective actions to 6 of the recommendations, and
              proposed alternative corrective actions to 4 other
              recommendations, which the OIG accepted.

          •   Federal Digital System (FDsys) Independent Verification and
              Validation (IV& V) - Security Analysis Report (Assessment Report
              09-04, December 24,2008). As the OIG's report notes,
              management concurred with each of the recommendations and
              proposed responsive corrective actions.

          •   Federal Digital System (FDsys) Independent Verification and
              Validation (IV& V) - Release R1 C.2 Pre-Deployment Status Report
              (Assessment Report 09-05, December 24,2008). As the OIG's
              report notes, a formal response was not requested from
              management. FDsys went live to the public in January 2009 and
              the response has been favorable.

          •   Financial Statement Audit (Audit Report 09-06, January 15, 2009).
              GPO's independent auditor, KPMG, issued an unqualified, or
              clean, opinion on GPO's FY 2008 consolidated financial
              statements, stating that GPO's financial statements were presented
              fairly, in all material respects, and in conformity with generally
              accepted accounting principles. However, the auditor identified 3
              significant deficiencies regarding financial reporting controls,
              controls over processing human resource information, and IT
              general controls. These deficiencies, when viewed together,
              constitute a material weakness. KPMG made recommendations
              that GPO address each ofthese deficiencies. The OIG further
              recommended that management develop a comprehensive
              corrective action plan to address the material weakness. As noted
              above, management concurred with all the recommendations
The Honorable Charles E. Schumer - Page 10


              except for one pertaining to product liability concerning passports,
              and has proposed an alternative product warranty estimate.

          •   Federal Digital System (FDsys) Independent Verification and
              Validation (IV& V) - Sixth Quarter Report on Risk Management,
              Issues, and Traceability (Assessment Report 09-07, March 20,
              2009). As the OIG report notes, management has concurred with
              each of this report's recommendations and has proposed
              responsive corrective actions.

          •   Oracle E-Business Suite Release 2 Independent Verification and
              Validation (IV&V) - Technical (Assessment Report 09-08, March
              31, 2009). As the OIG's report notes, management concurred
              with each of the report's recommendations and proposed
              responsive corrective actions. Oracle Release 2, renamed GBIS
              (GPO Business Information Systems), went live in early May
              2009.

      Other OIG Audits and Inspections. NA.

      Prior Period Outstanding Recommendations. As required by law, this
      section summarizes management's planned action to address remaining
      OIG recommendations still outstanding from previous reporting periods.

          •   GPO Network Vulnerability Assessment (Assessment Report 06-02,
              March 28,2006). Management continues to work on closing the
              remaining 2 open recommendations.

          •   GPO Oracle Program Stakeholder Analysis (Assessment Report
              06-03, March 31, 2006). Management continued to work toward
              resolution of the remaining 6 open recommendations.

          •   Report on Early Oracle Implementation: Independent Verification
              and Validation (Assessment Report 07-01, November 20,2006).
              Management resolved 1 of the outstanding recommendations and 8
              open recommendations continue to be addressed.

          •   Report on GPO's Compliance with the Federal Information
              Security Management Act (FISMA) (Assessment Report 07-09,
              September 27, 2007). Management continued to address the
              remaining 7 remaining open recommendations.
The Honorable Charles E. Schumer - Page 11


           •   Report on Perimeter Security Assessment of a GPO Building
               (Assessment Report 07-10, September 28,2007). One
               recommendation was closed and management continues to address
               the remaining 1 open recommendation.

           •   GPO Network Vulnerability Assessment (Assessment Report 08-01,
               November 1,2007). Management continued to address the
               remaining 2 open recommendations.

          •    Federal Digital System (FDsys) Independent Verification and
               Validation (IV& V) - First Quarter Observations and
               Recommendations (Assessment Report 08-04, March 28, 2008).
               One of the remaining 3 open recommendations was closed and
               management continued to address the last 2 open
               recommendations.

          •    Operating System Security for GPO's Passport Printing and
               Production System (Assessment Report 08-06, March 31, 2008).
               Management continued to address the sole remaining open
               recommendation.

          •    Diversity Management Programs at GPO (Audit Report 08-10,
               September 11,2008). Management continued to address the two
               recommendations that remain open.

          •    Assessment of GPO's Transition Planningfor Internet Protocol
               Version 6 (Assessment Report 08-12, September 30, 2008). One
               recommendation remains open pending completion of GPO's
               ongoing infrastructure refresh and approval of funding to proceed
               with IPv6.

III.   Investigations. During the reporting period, the GIG performed
       investigative work on workers' compensation fraud, procurement fraud,
       employee misconduct, and miscellaneous matters. As the OIG reports,
       highlights of this work resulted in the debarment of one contractor for
       submission of false delivery records; the possible inappropriate disclosure
       ofPII by a contractor, leading to Management Implications Report
       containing a series of OIG recommendations for protecting against
       inappropriate disclosures of PH by contractors; the arrest of an individual
       for fraudulent GPO and other Government purchase card transactions;
       three presentations to the Department of Justice regarding procurement
       fraud; a forfeiture from a GPO employee for fraudulently claiming no
       earnings while receiving workers' compensation payments; guilty pleas
The Honorable Charles E. Schumer - Page 12


       from 3 GPO employees for simple assault involving another GPO
       employee; the arrest of another GPO employee after the OIG learned of an
       outstanding warrant for his arrest on assault charges; and coordination
       with other Inspectors General and other law enforcement organizations on
       a variety of miscellaneous matters, including referral of 3 incidents of
       potential Title 44 violations to the appropriate Inspectors General for
       action; among other measures. These activities demonstrated the value of
       OIG investigators in protecting GPO from waste, fraud, and abuse.

IV.    Statistical Tables.

       Statistical tables as required by law are enclosed.

If you need additional information with respect to this report, please do not
hesitate to contact Mr. Andrew M. Sherman, Director of Congressional Relations,
on 202-512-1991, or bye-mail at asherman@gpo.gov.

Sincerely,




ROBERT C. TAPELLA
Public Printer

Enclosures

cc:    The Honorable Robert Brady, Vice Chairman
       The Honorable Dan Lungren, Ranking Minority Member
       The Honorable Patty Murray
       The Honorable Tom Udall
       The Honorable Robert Bennett
       The Honorable Saxby Chambliss
       The Honorable Michael Capuano
       The Honorable Susan Davis
       The Honorable Kevin McCarthy
ENCLOSURE I

                   STATISTICAL TABLE FOR SECTION S(b)(2) - DISALLOWED COSTS

                                                         Number of       Disallowed Costs
                                                        Audit Reports Questioned Unsupported
A.      Audit reports for which final action 1 had
        not been taken by the commencement
        of the reporting period                                o             o             o
        Audit reports issued during the period
        with potential disallowed costs                        o            o              o
        Total Costs                                            o            o               o
B.      Audit reports on which management
        decisions' were made during the
        reporting period

        ( i.)    Dollar value of disallowed costs             o            o               o
        (ii. )   Dollar value of allowed costs                o            o               o
c.     Audit reports for which final action
       was taken during the period, including:
       ( i.)   Dollar value of disallowed costs                o           o               o
               that were recovered by management
               through offsets against other
               contractor invoices or nonpayment

        (ii.)    Dollar value of disallowed costs              o           o               o
                 that were written off by management

D.     Audit reports for which no final                        o           o               o
       action has been taken by the end
       of the reporting period




1 As defined by law, the term "final action" means the completion of all actions that the management of

an establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occurs when a management decision has been made.
, As defined by law, the term "management decision" means the evaluation by management of the
findings and recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including actions concluded
to be necessary.
ENCLOSURE II


     STATISTICAL TABLE FOR SECTION 5{b}{3} - FUNDS PUT TO BETTER USE
                 AGREED TO IN A MANAGEMENT DECISION

                                                        Number of       Dollar Value of
                                                        Audit ReQorts   Recommendations
A.      Audit reports for which final action) had
        not been taken by the commencement of
        the reporting period                                   1               $8,495

        Audit reports for which final action had
        not been taken for new reports issued
        during the reporting period with potential
        funds put to better use
                                                              0                    0
B.      Audit reports on which management
                 4
        decisions were made during the reporting
        period                                                 1               $8,495

C.      Audit reports for which final action was
        taken during the reporting, including:

        ( i.)   Dollar value of recommendations
                that were actually completed                  0                    0

        (ii.)   Dollar value of recommendations
                that management has subsequently
                concluded should not or could not
                be implemented or completed                   0                    0

D.      Audit reports for which no final action has
        been taken by the end of the reporting period         0                    0




3 Same definition as in Enclosure l.
4 Same definition as in Enclosure l.
